Soa
\

2311 Douglas Street LE Mail 2
ouglas Street CAL gal Briefs E-Mail Address:

Omaha, Nebraska 68102-1214

Te 15234 contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850
No. 20-1077
AMAZON.COM, INC.,
and AMAZON LOGISTICS, INC.,
Petitioners,
v.
BERNARD WAITHAKA,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), | certify that the SUPPLEMENTAL BRIEF
FOR THE PETITIONERS in the above entitled case complies with the typeface requirement of
Supreme Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and

10 point for the footnotes, and this brief contains 794 words, excluding the parts that are exempted
by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 5th day of April, 2021.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL NOTARY-State of Nebraska A. Chih
RENEE J. GOSS 9 °
My Comm. Exp. September 5, 2023 =

Notary Public Affiant 40875
